OIG Investigative Reports, San Diego, CA - Former El Centro School Superintendent Pleads Guilty To More Than $325,000 in Federal Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
NEWS RELEASE
OFFICE OF THE UNITED STATES ATTORNEY
SOUTHERN DISTRICT OF CALIFORNIA
San Diego, California
United States Attorney
Laura E. Duffy
Assistant U.S. Attorney Lawrence A. Casper (619)546-6734
For Immediate Release
Former El Centro School Superintendent Pleads Guilty To More Than $325,000 in Federal Grant Fraud
NEWS RELEASE SUMMARY - March 12, 2012
United States Attorney Laura E. Duffy announced today that the former Superintendent of the
El Centro Elementary School District, Michael P. Klentschy, pleaded guilty to mail fraud charges in two
related cases alleging fraud in elementary school math and science grants. In conjunction with his pleas,
Klentschy admitted that his fraud caused losses of more than $325,000. Klentschy entered the pleas in both
cases earlier today before United States Magistrate Judge Nita L. Stormes subject to final acceptance by
United States District Court Judge Marilyn L. Huff at, or before, sentencing.
According to court documents, from 1994 until 2007, Klentschy was the Superintendent of the
El Centro Elementary School District, in Imperial County. During his tenure as Superintendent, Klentschy
had significant experience with and involvement in the use and administration of grant monies. As part of
his plea arrangement, Klentschy admitted that during his tenure as Superintendent: (1) he fraudulently
arranged to hire, on a federal grant, a partnership entity, to pay that entity nearly $400,000, and, in return, was
paid $90,000 of grant funds back from the entity that were disguised as “Research Assistant” payments
although Klentschy was not a Research Assistant for that partnership and was not entitled to that money; (2)
Klentschy made arrangements with an individual involved with a grant to pay him more than $78,000
disguised as “salary” for being an “Assistant Research Director” when, in fact, he was not an Assistant
Research Director and was not entitled to that money; (3) Klentschy arranged to pay two close family friends
with federal grant monies for work that was not completed; and (4) Klentschy knowingly and intentionally
sought and obtained nearly $60,000 in duplicate travel reimbursements for the identical travel expenses by
knowingly and intentionally providing duplicates of receipts to two or more reimbursement sources.
Klentschy also admitted that data that he presented to grant officials on a National Science
Foundation grant that purported to validate Klentschy’s own elementary school science teaching methods
was, in fact, inaccurate and unreliable. Court papers filed by the United States Attorney’s Office in one of
the cases (No. 10cr4642-H) state that, through this grant, Klentschy presented to grant authorities, and
subsequently published in his own name, data that purportedly showed that the results of standardized testing
of students for school year 2004-2005 in Imperial County, California validated Klentschy’s elementary school
science teaching methods. According to the Assistant United States Attorney’s court filing, however,
approximately 75% of the test scores reported to the grant authorities were falsified by Klentschy.
As part of his plea arrangement, Klentschy will pay restitution to the National Science Foundation,
the U.S. Department of Education, and the El Centro Elementary School District totaling $325,282.
These cases are the product of an investigation by the National Science Foundation - Office of
Inspector General, the U.S. Department of Education - Office of Inspector General, and the Federal Bureau
of Investigation
Sentencing for Klentschy in both cases is set for June 25, 2012 at 9:00 a.m., before Judge Huff.
DEFENDANT
Michael P. Klentschy
Criminal Case No. 10cr24642-H and 10cr4643-H
/tr>
SUMMARY OF CHARGES
Title 18, United States Code, Section 1341-Mail Fraud (one count in each of the above-cases)
Maximum penalties: 20 years in prison and a fine equal to twice the gross gain to any person or twice the
loss caused to persons by the offense.
INVESTIGATING AGENCIES
National Science Foundation-Office of Inspector General
U.S. Department of Education-Office of Inspector General
Federal Bureau of Investigation
Top
Printable view
Last Modified: 03/16/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov